In the SUPREME COURT of the UNITED STATES OF AMERICA

JO ELLEN MARY CROSSETT
Petitioner

V
EMMET COUNTY, MI et al.,
Respondent

On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Sixth Circuit

REPLY BRIEF FOR PETITIONER

Jo Ellen Mary Crossett
pro se

Jo Ellen Mary Crossett
P.O. Box 142
Harbor Springs, Michigan
49740
PH-(231)758-6049

ALL PARTIES TO THE PROCEEDINGS

The Respondents are:
Emmet County, MI
Peter A. Wallin, Sheriff
Cody Wheat, Sheriff Deputy
Fuller Cowell, Sheriff Deputy
Wade Leist, Sheriff Deputy/Detective
James R. Linderman, Prosecutor
Stuart Fenton, Assistant Prosecutor
Michael H. Schuitema, Assistant Prosecutor

Jo Ellen Mary Crossett is the Petitioner

ii
TABLE OF CONTENTS
Page
All Parties to the Proceedings
Table of Authorities

iii

Petitioner's Reply to Respondents Opposition Brief,,,,,,,,,,,,,,,,,,,,,,,,,,,

1

Argument

1

1. Indian Jurisdiction Issue
Respondents had no Jurisdiction to Arrest, Prosecute,
or Jail Ms. Crossett

2

The Indian Issue is not new, if so, the Circuits have Exceptions the
Sixth Circuit erred
3
MI))1),)))))))1)IMMIMMMIMMI)))1)))))))))))1),M)))))

Respondents Side-Step the Jurisdiction Issue, Attacking Ms. Crossett's
Indian Status Instead

4

2, The Circuit Court Erred in Affirming Simmary Judgment for
Respondents on the Constitutional Violations Claims

8

3. Ms. Crossett's pro se Status and Post-Incarceration Relief

11

Conclusion

11

111

TABLE OF AUTHORITIES
Page
Durant Roll -A Census of Ottawa and Chippewa Indians

6

Hope v Pelzer, 536 U.S. 730 (2002)

9

Indian Civil Rights Act 25 U.S.C.;1301

5

Indian Reorganization Act of 1934

6

McGirt v Oklahoma, U.S. S. Ct. (2020)

3,4

Public Law103.137 Language Added to Indian Civil Rights Act

5

Treaty of Detroit

2

Treaty of Washington

2

Spencer v Kenna, 523 U.S. (1998)

9

1
PETITIONER'S REPLY TO
RESPONDENTS' OPPOSITION BRIEF

Petitioner files this reply brief to address arguments and issues made by
Respondents in their brief in opposition.
Jo Ellen Mary Crossett(Ms. Crossett) is an Indian. Ms. Crossett lives on
Indian land, a reservation. She was on the reservation when she made the
phone calls to Emmet County Sheriff Peter Wallin regarding the raiding of
Indian homes on the reservation by Emmet County Sheriff Department and
Straits Area Narcotics Enforcement team.
Ms. Crossett was on the reservation when Respondents arrested and
prosecuted her four times, and jailed her repeatedly, including her serving a
nine-month sentence in Emmet County Jail. Respondents actions were
unreasonable and violated her constitutional rights.
ARGUMENT
1. INDIAN JURISDICTION ISSUE
The petition should be granted. The Indian jurisdiction issue is not a new
issue, and it is certainly not a new claim. Even if it is considered new the
circuits have exceptions, and this court has weighed in on new issues.

2
This court should grant the petition because:
Respondents had no jurisdiction to arrest or prosecute Ms. Crossett
because she is an Indian on Indian land, a reservation. Ms. Crossett is under
Little Traverse Bay Bands of Indians jurisdiction, or federal jurisdiction.
The Indian jurisdiction issue is not new. The Sixth Circuit erred in
passing over it. If it is considered new, the circuits have exceptions, and this
court has addressed the issue. Respondents had chances to argue.
Respondents side-step the question whether Ms. Crossett is on Indian
land, a reservation. And they decline to argue. Instead, questioning Ms.
Crossett's Indian status.
The Sixth Circuit erred in affirming summary judgment for respondents
on Ms. Crossett's claims for relief. Due to their unreasonable actions, they
lost their immunity. Emmet County et O. violated Ms. Crossett's
constitutional rights and state law claim.
Ms. Crossett's pro se status does not bar her from petitioning this court.
Ms. Crossett is a proper party.
1. A. The 1836 Treaty of Washington and the 1855 Treaty of Detroit with
the Ottawa and Chippewa Indians established reservations, and congress has

3
not abolished, diminished, or disestablished with intent the reservation. Ms.
Crossett lives on Little Traverse Bay Reservation. (Pet. Appendix, 57a)
Respondents do not have jurisdiction over her.(Pet. Appendix, 49a-51a) Ms.
Crossett intensively argued the treaties established reservations and that
congress never acted with intent to abolish them. Respondents did not
address the issue in their opposition brief. The McGin v Oklahoma U.S. 140
S. Ct. (2020) decision is extremely important in Ms' Crossett's case.(Pet. 19)
B. The Indian jurisdiction issue is not new. "Even before she was arrested
the first time Ms. Crossett made the police aware she was an Indian on a
reservation and the tribe LTBB(Little Traverse Bay Bands) or the federals
have jurisdiction over Ms. Crossett, not the State of Michigan or Emmet
County." (Pet. 26) Not only was it referred to by Ms. Crossett, but
Respondents themselves raised it in their Appellee response brief in the
Sixth Circuit. "The Appellees brought up the issue directly to Ms. Crossett in
their appellee response brief." (Pet. 28)
Respondents point out in their appellee brief Ms. Crossett's position in
the argument of Indian jurisdiction. "It is Crossett's position that the Emmet
County Sheriff Department has no jurisdiction or authority to arrest any
Native American, including Crossett." Respondents knew her position in the
argument because it was not new.(Pet. 28)

4
pleaded it as a claim for relief in her complaint..." It is a legal fact, the law,
not a claim for relief. In fact, it would be less likely to be read if Ms. Crossett
had asserted a new claim, which she did not do.
The Sixth Circuit erred in passing over so important an issue. After
Appellee-Respondents raised it themselves then Ms. Crossett prepared to
reply to them, and them McGirt happened, so of course Ms. Crossett included
the new case. Respondents brought up the issue whenever they pleased.
(BIO 26) It was only after the McGirt case that respondents put on the
brakes. Respondents say they had no chances to respond and argue, but
common sense shows that they were aware of Ms. Crossett's position through
the case and they have had opportunities to argue, they choose not to so far.
Instead they side-step the issue of Indian jurisdiction and then attack Ms.
Crossett's Indian status itself.
C. Respondents decline to argue that Ms. Crossett lives on LTB Reservation
a treaty backed reserve that has not been abolished by congress. But they do
decide to argue whether Ms. Crossett is an Indian. "Notably, Crossett offered
no specific evidence of membership in a tribe." (BIO 3) Then they go on to
say she is not a tribal member. Then they admit she has an Indian card from
the Bureau of Indian Affairs, two of them. then they say, "Both certificates
expressly stated that they only verified Indian descent and did not verify or

5
entitle Crossett to actual tribal membership."
First of all, Ms Crossett is a member of Mackinaw Bands of Chippewa and
Ottawa Indians, A band that is recognized through the treaties and is a
successor tribe from the treaties, Mackinaw Bands does not have federal
reaffirmation of that recognition, but they do retain all their rights,
aboriginal (Creator) tribal, and treaty rights. Their members are Indians.
Little Traverse Bay Bands is a reaffirmed tribe, they have government to
government relations with the United States. Ms. Crossett is also a member
of Little Traverse Bay Bands, She has a descendency card from the tribe,
and on her MA card it states that she is a Little Traverse Bay Indian. All
BIA cards state the very same words. That A shows descendency, not
membership in a tribe, That card too shows Ms. Crossett is an Indian.
What is important here is what words the Indian jurisdiction law speaks.
It clearly says Indians. Criminal jurisdiction over non-member Indians
Public Law 103-137 Excerpt adding language to the Indian Civil Rights Act
25 U.S.C.;1301 ("...means the inherent power of Indian tribes, hereby
recognized and affirmed, to exercise criminal jurisdiction over all Indians,")
(Pet. Appendix, 49a-51a) The law does not say over tribal members, it says,
ALL Indians. Ms. Crossett is an Indian.

6
Though various agencies list what makes an Indian, the more accurate
ones generally list two criteria. That an Indian is a direct descendant from
an ancestor on a government roll, and to receive most services one must live
on reservation land, where their ancestors lived. There is no one right
definition. But most of them contain descendency.
The Indian Reorganization Act of 1934 states who an Indian is,
"Persons of Indian descent who are members of any recognized Indian tribe,
now under federal jurisdiction, and all persons who are descendants of such
members." Descendants are included. The Act then goes on to say, " And all
persons who are descendants of such members who were, on June 1, 1934,
residing within the present boundaries of any Indian reservation..."
Many Indians are not tribal members, yet they still retain their rights.
Every Indian is a descendant. To be a descendant is to be an Indian.
Ms. Crossett sent in her tribal enrollment cards from Mackinaw Bands and
Little Traverse Bay Bands, along with her BIA card. Ms. Crossett can trace
her Indian ancestry back to a 1797 church record from michilimackinaw.
She has census rolls. Her ancestors are on the 1870 Indian Annuity Payment
Roll. She has five direct ancestors, five generations on the Durant Roll, the
very last Indian census taken in Northern Michigan. A roll very important to
LTBB, Mackinaw Bands, and all other bands and Indians on the reserve and

7
ceded territory. Ms. Crossett lives on Little Traverse Bay/Michilimackinaw
reserve. She uses Indian Health Services, medical system for treaty Indians.
Just as membership in a tribe is not necessary to be an Indian, neither
does blood quantum make an Indian. Though blood quantum is not a
necessity to be an Indian, descendency is. Respondents comment regarding
Ms. Crossett's blood quantum. " She did submit two certificates of degree of
Indian blood from the Bureau of Indians Affairs--notably blacking out the
indication of the percentage of Indian blood." (BIO 3)
Blood quantum is not necessarily relevant in identifying Indians Ms.
Crossett has various indications of her blood quantum, The Interior Dept of
United States only researched one of Ms. Crossett's ancestors so their
numbers show only a portion. Some tribes change enrollment criteria, and
that affected quantums. Ms. Crossett has her own estimate, because really,
that is all anyones numbers are, an estimate. But descendency makes an
Indian, blood quantum makes a tribal member.
Not all tribes use blood quantum. Mackinaw Bands do not. Sault Saint
Marie Tribe of Chippewa Indians do not use blood quantum. The point is
that Ms. Crossett is an Indian. Respondents chose not to argue the real
issue, Ms. Crossett is on Indian land, a reservation. An indication they have
no valid arguments.

8
2. The Sixth Circuit erred by affirming summary judgment to Respondents.
on Ms. Crossett's claims for relief because Respondents violated her
constitutional rights. All 24 claims of Ms. Crossett are valid and not only
standing alone, but they are supported by the Indian jurisdiction. Not only
was the first arrest warrantless misdemeanor for swearing on the phone, but
police had no jurisdiction to come disturb her and seize her.
Defendants brushed over the constitutional violations. A reasonable
person can see her rights were violated. Their actions were unreasonable.
They lost any immunity they may have had.
Ms. Crossett 's petition should be granted on the constitutional violations
also. There was no probable cause in any of her arrests. Respondents have
no immunity because they violated her rights repeatedly. The record speaks
for itself. A clean record at the age of 56 until Emmet County, Michigan
Sheriff Department sent deputies to Ms. Crossett's home to seize her, rough
her up so she would shut up about the unlawful raids on Indians and the
poorer population in North Emmet County, on the reservation.
The list of violations is long and Ms. Crossett's claims are valid. (Pet. 33)
The reasonableness theory should be pursued more when contemplating
clearly established and underlying constitutional violations. This court
established that violations are present in a case without the same facts

9
present. Hope a Pelzer, 536 U.S. 730(2002) Police officers are given "fair
notice" that violations can occur without identical facts. (Pet. 31)
3. Ms. Crossett's first arrest was obtained with excessive force. The favorable
termination theory does not apply to Ms. Crossett regarding the resisting
arrest charges. Spencer u Kenna, 523 U.S. (1998) supports Ms. Crossett's
post-incarceration relief. Though Respondents did not address it in their
brief, it is an extremely important issue.
Ms. Crossett's pro se status does not bar her from filing and arguing a
petition in this Court. Ms. Crossett is the proper party in her case. She went
through the outrageous violation of her constitutional rights, it is her case.
Ms. Crossett is competent. Respondents mention her competency three times.
Respondents brought up sundry items that must be addressed. They state a
reversed way of thinking regarding the District Court passing over the
Indian issue. "And, of course, Crossett herself was asking that any such
question not be addressed, in order that the tribe's case would deal with the
matter." (BM 4) That is not a correct statement. Ms. Crossett did not ask
such a thing. Nor did she ask for it not be settled in the manner they are
speaking. The judge brought up mediation and a settlement conference. Ms.
Crossett said she would not want to jeopardize the tribe's status by settling
the Indian issue during mediation or a settlement conference, not that she

10
did not want the judge to address it. Of course she wanted the judge to
address the issue, but the Court passed over the issue, Ms. Crossett did not.
That is the reason Ms. Crossett raised it to the District Court, because she
needed the court to address Indian jurisdiction.
Ms. Crossett fought the Indian jurisdiction issue in the County for years,
they just didnt arrest her until she told on them and she talked about Indian
jurisdiction. She was arrested before the tribe filed their lawsuit.
The case is Ms. Crossett's. It is here, and it is now. She is the proper
party to deal with it. She asked every judge in every court to deal with it, all
declined, and now it is brought before this Court.
In the District Court the judge asked Ms. Crossett if there were any other
issues to bring fourth. Ms. Crossett said yes, she was an Indian on Indian
land and that she was on a reservation, and so is Emmet County. (Pet. 6)
Had Ms. Crossett not wanted the judge to address it, she never would have
brought it up to her in the first place. Some of the words seemed somewnat
garbled or changed in the transcript, but Ms. Crossett remembers exactly
what she said and meant.

11
Respondents claim Ms. Crossett is "ill-equiped" to argue the status of
Native American lands or legal jurisdiction issues. Perhaps.
Respondents presume to be walking a mile in the tribe's moccosins, knowing
how they feel. "Indeed, the tribe would doubtless be aghast at the notion of
Crossett presuming to litigate the tribe's interests." ( BIO 6) Ms. Crossett is
litigating her own interest too.
If the Tribe is dismayed because Ms. Crossett is fighting for Indian treaty
rights, they certainly have not indicated such to Ms. Crossett.
They say, "With regards to the lands of the Little Traverse Bay Bands ..."
Yes, the land is Little Traverse Bay Bands. The land is also for Ms. Crossett
and Mackinaw Bands, it is land held in common, the same as traditions are
held in common, for all Ottawa and Chippewa, Odawa and Ojibwa.
CONCLUSION
The Court should grant the Petition for Certiorari.
Respectfully SubmittedA u
DATE: May 20, 2021

afti

Jo- &len Mary Crossett

the1111)

pro se
P.O. Box 142
Harbor Springs, MI 49740
PH (231) 758-6049

